<html>
<title> - ARE SUPERWEEDS AN OUTGROWTH OF USDA BIOTECH POLICY? (PART I)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
      ARE SUPERWEEDS AN OUTGROWTH OF USDA BIOTECH POLICY? (PART I) 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

                           Serial No. 111-158

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov













     ARE SUPERWEEDS AN OUTGROWTH OF USDA BIOTECH POLICY? (PART I)11






















      ARE SUPERWEEDS AN OUTGROWTH OF USDA BIOTECH POLICY? (PART I)

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

                           Serial No. 111-158

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-559 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       DAN BURTON, Indiana
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
PETER WELCH, Vermont                 ------ ------
BILL FOSTER, Illinois
MARCY KAPTUR, California
                    Jaron R. Bourke, Staff Director
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 28, 2010....................................     1
Statement of:
    Roush, Troy, farmer, Van Buren, IN, vice president, American 
      Corn Growers Association; Micheal D.K. Owen, Ph.D., 
      professor of agronomy, Iowa State University; Stephen C. 
      Weller, professor of horticulture, Purdue University; David 
      A. Mortensen, professor of weed ecology, Pennsylvania State 
      University; and Andrew Kimbrell, executive director, Center 
      for Food Safety............................................    17
        Kimbrell, Andrew.........................................    53
        Mortensen, David A.......................................    45
        Owen, Micheal D.K........................................    23
        Roush, Troy..............................................    17
        Weller, Stephen C........................................    36
Letters, statements, etc., submitted for the record by:
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio, prepared statement of.............................    11
    Kaptur, Hon. Marcy, a Representative in Congress from the 
      State of Ohio:
    Article dated May 3, 2010....................................    71
    H.R. 3299....................................................    77
    Kimbrell, Andrew, executive director, Center for Food Safety, 
      prepared statement of......................................    55
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Mortensen,, David A. professor of weed ecology, Pennsylvania 
      State University, prepared statement of....................    47
    Owen, Micheal D.K., Ph.D., professor of agronomy, Iowa State 
      University, prepared statement of..........................    26
    Roush, Troy, farmer, Van Buren, IN, vice president, American 
      Corn Growers Association, prepared statement of............    20
    Weller, Stephen C., professor of horticulture, Purdue 
      University, prepared statement of..........................    38


      ARE SUPERWEEDS AN OUTGROWTH OF USDA BIOTECH POLICY? (PART I)

                              ----------                              


                        WEDNESDAY, JULY 28, 2010

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, the Honorable Dennis 
J. Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Foster, 
Kaptur, Jordan, and Schock.
    Staff present: Jaron R. Bourke, staff director; Justin 
Baker, clerk/policy analyst; Leneal Scott, IT specialist, full 
committee; Justin LoFranco, minority press assistant and clerk; 
and Marvin Kaplan, minority counsel.
    Mr. Kucinich. The Subcommittee on Domestic Policy of the 
Committee on Oversight and Government Reform will now come to 
order.
    Farmers have known for years that a potentially devastating 
problem was growing in their fields: weeds that herbicides may 
not be able to control. To provide a visual demonstration of 
the problem that this hearing addresses, I ask that you look at 
the monitors for an excerpt from an ABC News segment that ran 
last year.
    [Video shown.]
    Mr. Kucinich. Today's hearing is the first held by Congress 
to examine the environmental impact of the evolution of 
herbicide-resistant weeds in fields growing genetically 
engineered herbicide-resistant crops. This is also the first 
day of a two-part hearing. We will hear from the U.S. 
Department of Agriculture in September.
    Without objection, the Chair and ranking minority member 
will have 5 minutes to make opening statements, followed by 
opening statements not to exceed 3 minutes by any other Member 
who seeks recognition. And without objection, Members and 
witnesses may have 5 legislative days to submit written 
statements or extraneous materials for the record.
    In farm fields across the Southeast and Midwest, a new crop 
has been sprouting among the rows of genetically engineered, 
Roundup Ready soy, corn and cotton. Familiar weeds have rapidly 
evolved a significant new trait: they can no longer be 
controlled by the herbicide Roundup. Herbicide resistant weeds 
such as pigweed, horseweed, water hemp, giant ragweed, palmer 
amaranth and common lambs quarters, have infested millions of 
acres of prime farm land. Some can grow three inches per day, 
reach a height of seven feet, and have stalks as thick as 
baseball bats. They can destroy farm equipment.
    When the U.S. Department of Agriculture allowed the 
commercialization of Roundup Ready crops, the results were 
supposed to be bigger yields, better profits for farmers and 
less pollution from herbicides. Though it has been little more 
than 10 years, for many farmers these promised benefits seem 
like a distant memory. The natural selection of herbicide-
resistant weeds in farm fields growing Roundup Ready crops is 
an indirect negative consequence of a technology that was 
purported to be nearly miraculous. And it is totally canceling 
out the alleged benefits of genetically engineered herbicide-
resistant crops.
    Rather than fewer herbicides, farmers have been using more 
herbicides and more toxic ones. In fact, Monsanto Co., the 
manufacturer of Roundup, spent years erroneously advising 
farmers to exclusively use ever greater quantities of Roundup 
to control the weeds in their fields. And for years, farmers 
listened.
    Meanwhile, these weeds were receiving evolutionary pressure 
to select for a trait of resistance to Roundup. The Roundup-
resistant trait is now dominant in weeds growing in many areas 
of the country.
    The introduction of genetically engineered plants is 
regulated by the Animal and Plant Health Inspection Service of 
the USDA pursuant to its authority under the Plant Protection 
Act. Where was the USDA while the weed problem that imperils 
modern agriculture practices was developing? In courtrooms 
across the country, USDA has been rebuked for having 
unreasonably and arbitrarily dismissed the environmental 
consequences of deregulating genetically engineered crops. In 
some cases, Federal judges have found that the USDA could 
produce no written record that it had ever considered the 
impact on farmers.
    Thus, a Federal district court invalidated USDA's decision 
to deregulate Roundup Ready alfalfa. USDA is now awaiting 
further directions from a Federal judge before taking further 
steps to consider whether and on what terms to deregulate this 
crop.
    Since taking office, Secretary Vilsack has promised that 
the new administration would take a fresh look at biotech crop 
policy. But the biotech industry isn't waiting for new policy. 
Chemical industry giants, such as Dow, BASF and Syngenta are 
plowing forward with new varieties of soy, corn and cotton. 
They are already asking USDA to deregulate seed varieties that 
have been genetically engineered to tolerate their own 
herbicides.
    In fact, the evolution of Roundup-resistant weeds, while a 
problem for Monsanto, has been an opportunity for other large 
chemical companies.
    The immediate consequences of the deregulation and planting 
of these multiple herbicide-tolerant crops will be the increase 
in use of more toxic herbicides. Dicamba and 2,4-D are more 
toxic than Roundup and their increased use can only be regarded 
as a setback for sustainable agriculture.
    In the longer term, the herbicide resistance of the weeds 
themselves could further change. If Roundup-resistant weeds 
evolved in only 10 years, could multiple-herbicide-resistant 
weeds be far away? I am going to ask that question again. If 
Roundup-resistant weeds evolved in only 10 years, could 
multiple-herbicide-resistant weeds be far away?
    Indeed, several species of weeds already exhibit multiple-
herbicide resistance. The development of more multi-herbicide-
resistant weeds possess a very serious threat to agriculture in 
the United States as we know it. The increased expense for 
mechanical and hand labor to remove herbicide-resistant crops 
on today's colossal farms could be cost prohibitive, 
potentially wreaking havoc on modern farming.
    Until now, the USDA has deregulated without condition every 
herbicide-resistant seed variety that industry has produced. 
Will that pattern continue in the future? Does the USDA have 
the legal authority to attach conditions and restrictions or 
even to block the commercialization of genetically engineered 
herbicide-resistant crops? Will that agency use that authority?
    Farmers have a long-term investment in their chief asset, 
their land. Chemical companies operate on a shorter horizon. 
Nature's reaction to farm practices since the introduction and 
marketing of genetically engineered herbicide-resistant crops 
has created a temporary opportunity for chemical companies, an 
opportunity they will pursue at the long-term expense of the 
Nation's farmers.
    Now more than ever, farmers need a Department of 
Agriculture that takes care to preserve and protect the farming 
environment for generations to come.
    I now recognize the ranking minority member from Ohio, Mr. 
Jordan.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Jordan. Thank you, Mr. Chairman.
    I should have cleared this with the chairman first. I am 
just going to enter my statement into the record, if that is OK 
with the chairman.
    Mr. Kucinich. Without objection.
    Mr. Jordan. I know our member, Congressman Schock, has a 
statement that he would like to make at the appropriate time.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Did you want to yield to him?
    Mr. Jordan. I would be happy to yield to the gentleman.
    Mr. Kucinich. OK, we will enter your statement into the 
record and you can yield to him.
    Mr. Jordan. Thank you, Mr. Chairman. I yield to the Member 
from Illinois.
    Mr. Schock. Thank you, Mr. Jordan. Chairman Kucinich, I 
thank you for the opportunity to provide these opening remarks. 
As a Member of Congress who represents one of the 60 ag-
dominant districts in the United States, this issue is of 
particularly great importance to the constituents I represent.
    I would also like to thank our witnesses who traveled with 
us here today and are going to be testifying.
    Before I begin, I would like to ask for unanimous consent 
to insert for the record a copy of remarks by the Illinois Farm 
Bureau and the Illinois Corn Growers, expressing shared concern 
about additional Government regulation of our Nation's farmers.
    Mr. Kucinich. Without objection.
    Mr. Schock. Thank you.
    The title of today's hearing confuses me even more than the 
underlying premise. The attempt to link advancements to help 
farmers produce greater yields, become commercially viable and 
better stewards of their land and the environment to some sort 
of habitat negligence is totally befuddling to me. The 
underlying premise of this hearing is that farmers across this 
country are not employing the best management practices on 
their fields.
    According to these assumptions, they have no concern about 
their long-term economic and environmental sustainabilty and 
are thus destroying their fields and the environment. With this 
view, only new Government regulation can combat these weeds.
    I understand the purpose of this hearing is to reaffirm 
this belief, that by some unnatural process the use of 
genetically engineered seeds and the use of weed repellent have 
led to some unnatural superweed. Yet the facts couldn't be 
further from the truth.
    U.S. growers have been growing herbicide-tolerant crops and 
using herbicides to control weeds for almost 60 years. Since 
1980, 90 percent of the corn and soybeans grown in the United 
States have been herbicide-tolerant, grown in fields treated 
with herbicides. Because U.S. growers have been using 
herbicides for almost 60 years, they have been dealing with 
herbicide resistant for almost 50 years. Certain weed species 
will inevitably become resistant to some herbicides or any 
other control methodology, for that matter.
    Neither the Government nor the grower can prevent 
resistance from occurring. Rather, they can employ those best 
management practices which will help them stay two steps ahead 
of the next generation of weeds, while remaining economically 
viable and successful.
    If the goal today is to end the use of science and 
technology in the industry of agriculture, I would ask, how 
will the U.S. agriculture continue to play a role in feeding 
the world's 6\1/2\ billion people? Surely we can't do that by 
going in reverse and employing practices which will put our 
farming community at a competitive disadvantage.
    In reality, I would argue the market controls already in 
place are more than enough to ensure farmers are employing the 
best practices to control herbicide-resistant weed growth on 
their fields. It is actually our farmers, not the Government, 
who are more concerned about the development of new herbicide-
resistant weeds. And it is this concern which has already 
prompted them to employ crop and herbicide rotation and other 
best management practices to combat any weeds at the first sign 
of growth.
    The farmer who employs these practices will lose less of 
his yield to weeds and be more profitable in the long run. And 
the farmer who doesn't, well, he won't be a farmer for very 
long. The fact of the matter is that farmers yield more 
efficient growth from fields than ever before. They have done 
this during the same period of time which these purported 
superweeds have begun taking over.
    Farmers realize that over-use or reliance on any single 
product to mitigate weed growth quickly results in the need to 
use a new and more expensive product. As such, it is already in 
their own financial interests to rotate weed mitigation 
techniques.
    In addition, the agriculture industry realizes that is in 
the best interest to mitigate extraneous weed growth as they 
spend tens of millions of dollars developing these products. In 
order to obtain return on their investments, these companies 
seek the use of their products over a long period of time. 
Selling an herbicide product that proves to be effective for 
only a few years is not a way to stay in business.
    The laws of nature tell us that weeds will naturally become 
tolerant to any single mitigation practice. So why would we 
limit those practices a farmer may employ? What we should be 
talking about here is ensuring our farmers have all the tools 
necessary, the most complete playbook to mitigate weed growth, 
and not limit their options.
    The real question here today seems to be, how much should 
we be regulating human behavior, and at what point do we say 
there are enough Government regulations and market controls in 
place that we can trust humans faced with a myriad of 
incentives to make the right decisions? Will there always be a 
handful of bad actors? Absolutely. But does that mean the 
Government should reach further into the lives of every farmer 
across the country with more regulations? I don't think so.
    Do we tell a person how many calories he can consume each 
day or how many miles he or she can drive, or how long he can 
stay out in the sun? No. Rather, we try to educate our citizens 
with all the facts available about the decisions they are 
making, providing them with the tools necessary to make the 
right decisions. But ultimately, those decisions are theirs. We 
leave it up to each citizen to employ that practice, which will 
best ensure his or her long-term health, or in this case, their 
economic sustainabilty.
    I yield back.
    Ms. Kucinich. The Chair recognizes the gentlelady from 
Ohio, Ms. Kaptur.
    Ms. Kaptur. Mr. Chairman, I just want to thank you very 
much for holding this hearing today. This is an issue in which 
I have been interested for a long time, particularly the 
exorbitant fees charged to farmers who use these various 
products to try to control weeds on their property. And we have 
tried to find ways to make the costs more bearable. I have a 
bill to do that.
    And we see how unfair it is to many of our farmers when, if 
crops are planted in Latin America, let's say, versus here, and 
the fees are different, what a difference that makes in bottom 
lines here.
    We are also coming from the Lake Erie area very interested 
in the long-term impact of the use of these products on our 
soil and ultimately on Lake Erie, our life source, because of 
the unexplained now-growing amount of algal blooms that are on 
Lake Erie. Some are hypothesizing it has to do with the fact 
that no-till has been used to such an extent that certain 
minerals do not break down in the soil in the same manner as if 
one tilled. And there are all kinds of theories now as to why 
we are getting these enormous algal blooms in Lake Erie and 
eutrophic areas for the first time, when we don't have oxygen 
in certain areas of the lake.
    So we are looking at the connection between field 
agriculture, I live in the soybean bowl in the western basin of 
Lake Erie. And so we are trying to really understand the 
connection between crop practices, water flows, the health of 
the lake and the connection between herbicides and the long-
term health of both the farm fields that the farmers are 
stewarding and then the water systems that serve us. I am not 
sure anyone completely understands it yet, but we know that 
there is something happening out there that is atypical.
    So we thank you very much for holding this hearing today 
and we look forward to the witnesses' testimony.
    Mr. Kucinich. I thank the gentlelady.
    Mr. Foster is recognized for 3 minutes.
    Mr. Foster. Thank you. As a scientist and a businessman, I 
think what is needed here is a mature understanding of the 
situations in which the socialized risk of badly used 
mitigation controls is something that really makes it best for 
the Government to step in and regulate things. This is a very 
complicated thing. This is not an example of a situation where 
the free market incentives get the right idea. You can look at 
situations like just vaccines and antibiotic resistant bacteria 
as something where there are big socialized risks if 
individuals do not conduct proper control and proper use of 
these agents.
    The other thing that concerns me about just letting the 
market do everything is the long time scale for developing 
agents that will continue to work as phenomenally well as the 
Roundup Ready varieties and the Roundup itself have well into 
the future. One of the things that I am worried about is that 
there actually hasn't been enough incentive to develop a 
variety of substitutes for Roundup-resistant crops and Roundup 
itself.
    So I think that is something where we have to actually look 
at the science of this thing and understand, make our best 
estimate of how things are going to develop over time. In 
situations where you don't see the free market developing the 
right set of products that will have the huge, that will 
continue the huge economic and environmental benefits that we 
have seen from these, then I think that is something where the 
Government actually has a legitimate role to step in and to 
nudge people in the right direction.
    I look forward to the testimony and thank the chairman and 
yield back.
    Mr. Kucinich. I thank the gentleman.
    I want to continue by introducing our panel. Mr. Troy Roush 
is a fifth-generation farmer from central Indiana. The farm is 
located outside Van Buren in Grant County, approximately 75 
miles northeast of Indianapolis. He farms on the same farm he 
was born and raised on with his father and two younger 
brothers. They grow corn, soybeans, wheat, popcorn, alfalfa and 
tomatoes on their 5,500 acre diversified farming operation. Mr. 
Roush also serves as vice president of the American Corn 
Growers Association.
    Professor Micheal Owen has a Ph.D. in agronomy and weed 
science from the University of Illinois. He is associate chair 
and an extension weed scientist in the Department of Agronomy 
of Iowa State University. He has extensive expertise in weed 
dynamics, integrated pest management and crop risk management. 
His objective in extension program is to develop information 
about weed biology, ecology and herbicides that can be used by 
growers to manage weeds with cost-efficiency and environmental 
sensitivity. His work is focused on supportive management 
systems that emphasize a combination of alternative strategies 
and conventional technologies.
    Dr. Owen has published extensively on farm-level attitudes 
toward trans-genic crops and their impacts, selection pressure, 
herbicide resistance and other weed life history traits and 
tillage practices. He recently served on the National Research 
Council Committee on the Impact of Biotechnology on Farm Level 
Economics and Sustainabilty.
    Professor Stephen Weller is professor of weed science in 
the Department of Horticulture and has been at Purdue 
University for 30 years. He has responsibilities for research, 
teaching and extension and has taught courses in weed science, 
organic horticulture product and for 22 years was coordinator 
of the Purdue University herbicide action course. Research 
interests include weed biology, herbicide mode of action, 
resistance mechanisms to herbicides in crops and weeds, non-
chemical weed management and integrated weed management 
vegetable crops.
    He has extensive international experience working on 
integrated pest management and vegetable cropping systems in 
the developing world. Dr. Weller co-authored the text, Weed 
Science: Principles and Practices, Fourth Edition, seven book 
chapters, over 70 referred journal articles, over 100 research 
abstracts and 35 miscellaneous research extension publications.
    Professor David Mortensen has advanced degrees in ecology 
and agronomy from Duke and North Carolina State University. He 
has worked in the field of weed management and ecology for the 
past 23 years in Midwestern agriculture at the University of 
Nebraska and in the Eastern United States at Penn State, where 
he currently holds a full professorship in the Department of 
Crop and Soil Sciences.
    Professor Mortensen has researched and written widely on 
integrated methods of weed management, herbicide-resistance 
management, and the ecology that underpins weedy plant 
population dynamics. Professor Mortensen is the author of over 
120 papers and book chapters on this body of research. He has 
also chaired the flagship National Competitive Grants Program 
in weed or integrated pest management four times in the past 10 
years. Most recently in 2009, he chaired the Weedy and Invasive 
Organisms Competitive Grants Program with the USDA.
    Finally, Mr. Andrew Kimbrell is founder and executive 
director of the Center for Food Safety in the International 
Center for Technology Assessment in Washington, DC. He is one 
of the country's leading environmental attorneys and an author 
of numerous books and articles on environment, technology, 
society and food issues. His books include 101 Ways to Help 
Save the Earth; The Human Body Shop; The Engineering and 
Marketing of Life; Your Right To Know; Genetic Engineering and 
Secret Changes in Your Food; and general editor of Fatal 
Harvest: The Tragedy of Industrial Agriculture.
    His articles on law, technology, social and psychological 
issues have also appeared in numerous law reviews, technology 
journals, popular magazines and newspapers across the country. 
He has been featured in numerous documentaries including the 
film The Future of Food. In 1994, the Aetna Reader named Mr. 
Kimbrell as one of the world's leading 100 visionaries. In 
2007, he was named one of the 50 people most likely to save the 
planet by the Guardian U.K.
    I want to thank each and every one of our witnesses for 
being here. It is the policy of the Committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I ask that you rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much.
    Let the record reflect that each and every one of the 
witnesses answered in the affirmative.
    I would ask that each witness give an oral summary of your 
testimony, and keep the summary under 5 minutes in duration. 
Your entire written statement will be included in the hearing 
record. So it is much appreciated that you help us on this.
    Mr. Roush, you are the first witness on this panel. We ask 
that you begin.

STATEMENT OF TROY ROUSH, FARMER, VAN BUREN, IN, VICE PRESIDENT, 
 AMERICAN CORN GROWERS ASSOCIATION; MICHEAL D.K. OWEN, PH.D., 
   PROFESSOR OF AGRONOMY, IOWA STATE UNIVERSITY; STEPHEN C. 
WELLER, PROFESSOR OF HORTICULTURE, PURDUE UNIVERSITY; DAVID A. 
   MORTENSEN, PROFESSOR OF WEED ECOLOGY, PENNSYLVANIA STATE 
UNIVERSITY; AND ANDREW KIMBRELL, EXECUTIVE DIRECTOR, CENTER FOR 
                          FOOD SAFETY

                    STATEMENT OF TROY ROUSH

    Mr. Roush. Thank you. Good afternoon, Chairman Kucinich, 
Ranking Member Jordan and members of the House Committee on 
Oversight and Government Reform, Subcommittee on Domestic 
Policy.
    Before beginning my testimony, I want to thank the Chair 
for this invitation to address the issue of glyphosate-tolerant 
weeds and the crisis that it presents to U.S. farmers and 
American agriculture.
    My name is Troy Roush. I farm 5,500 acres with my father 
and brothers in Central Indiana. We grow soybeans, corn, wheat, 
both conventional and organic, as well as popcorn and tomatoes. 
I also serve as Vice President of the American Corn Growers 
Association. I am here today to discuss how glyphosate-tolerant 
weeds affect my farming operation and many others in production 
agriculture.
    I have been using genetically engineered soybeans since 
2000, when a lawsuit for patent infringement against my family 
was dropped by Monsanto. After having endured 2 years of costly 
litigation that took its toll on my family, we decided that, in 
order to protect ourselves from future baseless lawsuits, we 
would make the conversion to biotech crops and began using 
Roundup Ready varieties for our non-organic crops.
    During the first few years we were able to rely exclusively 
on Roundup Ready technology for weed management, applying 
glyphosate for burn-down and again to eliminate weed pressure 
after the crop emergence. However, due to problems with 
glyphosate tolerant weeds, and skyrocketing costs of Roundup 
Ready seeds and the price premiums being paid for non-
genetically engineered soybeans, we have since returned to 
using conventional varieties on approximately half of our 2,600 
soybean acres. The diminishing effectiveness of glyphosate, as 
demonstrated in the dramatic increase in glyphosate-tolerant 
weeds, is devaluing the technology.
    Fortunately, Indiana enacted farmer protection laws in 2002 
after and because of the lawsuit with Monsanto to prohibit 
patent infringement cases where small amounts of genetically 
engineered content is detected in crops and fields. Without 
those protections, our return to conventional soybean 
production would have brought with it the potential of 
significant risk of patent infringement liability.
    After 2005, we first began to encounter problems with 
glyphosate-resistant marestail and lambsquarters in both our 
soybean and corn crops. Since there had been considerable 
discussion in the agricultural press about weeds developing 
resistance or tolerance to Roundup, I contacted a Monsanto weed 
scientist to discuss the problems I was experiencing on the 
farm and what could be done to eradicate the problematic weeds. 
Despite well-documented proof that glyphosate-tolerant weeds 
were becoming a significant problem, the Monsanto scientist 
denied that resistance existed and instructed me to increase my 
application rates.
    The increase in application rates proved ineffectual, and I 
was forced to turn to alternative methods for weed management, 
including the use of tillage and other chemistry. In 2007, the 
weed problems had gotten so severe that we turned to an ALS 
inhibitor marketed as Canopy to alleviate the problem in our 
pre-plant, burn-down herbicide application. In 2008, we were 
forced to include the use of 2,4-D and an ALS residual in our 
herbicide programs. Like most farmers, we are very sensitive to 
environmental issues and we were very reluctant to return to 
using tillage and more toxic herbicides for weed control. 
However, no other solutions were then or are now readily 
available for the eradication of weed problems caused by 
development of glyphosate resistance.
    As I mentioned earlier, I have now returned to the use of 
conventional soybean varieties for about half my total acreage. 
That proportion of acreage will increase if supply of quality 
conventional seed varieties increases. While conventional 
soybean varieties have been very difficult to find, a small 
number of independent companies are now beginning to respond to 
demand. Conventional soybean seeds provide significant cost 
savings as compared to Roundup seeds. This year, Roundup 
soybeans cost $50 a bag which translates to $65 an acre. The 
conventional varieties planted from saved seed are about $15 an 
acre.
    Since the weed management and herbicide costs are now 
roughly the same because of resistant Roundup Ready weeds, the 
difference seed costs using the conventional variety represents 
pure profit. I not only reduced production costs through the 
use of conventional soybean varieties, but last year I received 
a 20 percent price premium on my non-genetically engineered 
soybeans. Last year that translated to an additional $80,000 in 
additional profit.
    Mr. Kucinich. Mr. Roush, your time has expired. What I 
would like you to do is just take a minute to sum up, please.
    Mr. Roush. Sure.
    I guess the subject I want to talk about most is the 
solution, the potential solution, which is Dicamba. Anyone who 
has witnessed or has any experience with Dicamba has witnessed 
its volatility. We are not talking about pesticide drift in 
this context. I have seen Dicamba rise from fields, move across 
the ground, damaging any vegetables, soybeans, fruit, flowers, 
gardens in its path. Dicamba is not widely used by farmers for 
this reason. Even so, as recently as 2008, I had Dicamba 
destroy 20 acres of tomatoes.
    Some would argue that it is not Government's role to stifle 
innovation by regulating the commercialization of these crops. 
But can we trust industry to regulate itself? The history of 
the American farmers shows that the answer to that question is 
a resounding no.
    [The prepared statement of Mr. Roush follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman for testifying. You 
will get an opportunity to get into more of this during 
questions and answers. As I said, your entire testimony will be 
included in the record of the hearing. We very much appreciate 
your being here.
    The Chair recognizes Professor Owen. Thank you.

                 STATEMENT OF MICHEAL D.K. OWEN

    Mr. Owen. Good afternoon, Mr. Chairman and members of the 
committee. Thank you for the opportunity to speak with you 
today about the economic and environmental effects of the 
current management of genetically engineered herbicide-
resistant crops in the U.S. agriculture.
    I served as a member, as noted, of the Committee on the 
Impact of Biotechnology on Farm Level Economics and 
Sustainabilty of the National Research Council. The Research 
Council is the operating arm of the National Academy of 
Sciences, the National Academy of Engineering and the Institute 
of Medicine of the National Academies chartered by Congress in 
1863 to advise Government on matters of science and technology.
    Genetically engineered crops [GE], with resistance to 
herbicides, were introduced in 1996. In 2010, U.S. farmers grew 
cultivars of soybean, cotton, corn, canola, and sugar beet with 
genetically engineered resistance to the herbicide glyphosate. 
Most herbicide-resistant crops in the United States are 
resistant to glyphosate, so I will restrict my remarks to this 
particular trait. I will focus primarily on experiences with 
herbicide-resistant weeds and soybean, cotton and corn 
production, as these crops are grown on roughly half of the 
U.S. crop land.
    It should be noted that weeds represent the most 
economically damaging pest complex to agriculture and are 
ubiquitous to all agriculture systems. Crops with resistance to 
glyphosate have been widely adopted by growers. With the 
adoption of these crops, farmers have substituted the use of 
glyphosate for other herbicides and weed management tactics, 
because the resistance allows these crops to survive glyphosate 
unharmed.
    The adoption of glyphosate-resistant crops facilitated 
production practices such as using no tillage practices. Less 
tillage can improve soil structure and quality, as well as 
reduce soil erosion, which enhances water quality. The use of 
glyphosate in a properly managed herbicide-resistant crop 
system is an efficient weed management practice. However, 
management decisions have resulted in increased and often 
exclusive reliance on glyphosate to manage weeds in GE crop 
systems and are reducing its effectiveness in some situations 
due to the evolved resistance to glyphosate in some weed 
species.
    Ten weed species in the United States have evolved 
resistance to glyphosate since the introduction of glyphosate-
resistant crops in 1996. Glyphosate-resistant crops are 
effectively benign in the environment. Gene flow between 
herbicide-resistant crops and closely related weed species does 
not explain the evolution of resistance in U.S. fields, because 
sexually compatible weeds are absent where corn, cotton and 
soybean are grown.
    Herbicide resistant weeds have historically been a problem 
in corn, cotton and soybean. Herbicide resistance is not unique 
to fields with genetically engineered crops. Weeds with either 
evolved resistance or natural tolerance will proliferate in any 
field in which the practices are used recurrently and 
ultimately provide the weed with an ecological advantage.
    The concern with glyphosate-resistant crops is that the 
decision to use glyphosate year in and year out is accelerating 
the evolution of resistant weeds. Growers are already seeing 
the economic consequences from the proliferation of these 
resistant weeds. In Delaware, a study showed that glyphosate-
resistant horseweed increased most soybean growers costs by at 
least $2 per acre. And in a study of 400 corn, soybean and 
cotton producers from 17 States, growers estimated that 
glyphosate-resistant weeds increased their costs by $14 to $16 
per acre.
    To deal with weed problems in these fields, most growers 
responded that they would increase the frequency of glyphosate 
applications, they would apply herbicides with different modes 
of action and increase tillage. The willingness to increase 
costs to supplement weed management tactics and herbicide-
resistant crops indicates that growers value the convenience 
and simplicity of these crops without appreciating the long-
term ecological and economic risks.
    Growers must adopt more diversified weed management 
practices, recognize the importance of understanding the 
biology of the cropping systems, and give appropriate 
consideration to more sustainable weed management programs to 
maintain the effectiveness of the genetically engineer 
herbicide-resistant crops.
    Most of the economically important glyphosate-resistant 
weeds are found in crop fields in the Southeast and Midwest, 
and the number of weed species evolving resistance to 
glyphosate is growing, and the number of locations with 
glyphosate-resistant weeds is increasing at a greater rate as 
the decision to spray more acreage with glyphosate continues.
    In summary, though the problems of evolved resistance and 
weed shifts are not unique to herbicide-resistant crops, their 
occurrence diminishes the effectiveness of weed control 
practice that has minimal environmental impact. Weed resistance 
to glyphosate may cause farmers to return to tillage as a weed 
management tool and to use alternative registered herbicides 
with different environmental characteristics.
    A number of new genetically engineered herbicide-resistant 
varieties are currently under development and may provide 
growers with other weed management options when fully 
commercialized. However, the sustainabilty of these new GE 
crops will also be a function of how the traits are managed. If 
they are managed in the same fashion as the current glyphosate-
resistant crops, the same problems of evolved herbicide-
resistance and weed shifts will occur. Therefore, farmers of 
herbicide-resistant crops should incorporate more diverse weed 
management practices. These practices should be encouraged 
through collaborative efforts by Federal and State government 
agencies, private sector technology developers, universities 
and farmer organizations to develop cost-effective resistant 
management programs and practices that preserve effective weed 
control in herbicide-resistant crops.
    I invite the committee to read my submitted statement and 
the National Research Council's recent report, The Impact of 
Genetically Engineered Crops on Farm Sustainabilty in the 
United States, for greater detail on this topic than I have had 
time to present today. Thank you.
    [The prepared statement of Mr. Owen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much.
    Professor Weller.

                 STATEMENT OF STEPHEN C. WELLER

    Mr. Weller. Thank you, Chairman Kucinich and members of the 
committee, for inviting me to be a witness today before the 
Domestic Policy Subcommittee of the Oversight and Government 
Reform Committee.
    I am going to quickly summarize my written testimony and I 
want to mention that in addition to the written testimony, 
there is an appendix of a paper that contains much more detail 
than some of that testimony includes.
    Basically, I am here today to provide testimony relating to 
the issues before this committee as stated in the invitation 
letter involving genetically engineered herbicide-resistant 
crops and the environmental impact of the evolution of 
herbicide-resistant weeds. Additionally, I have been asked to 
provide testimony on the relationship between adoption of 
genetically engineered herbicide-resistant crops and the 
evolution of herbicide-resistant weeds, the rapidity with which 
certain economically significant weeds have evolved their 
herbicide resistance, the incidence, risk and implications for 
farming and herbicide usage of multiple-herbicide resistance in 
weeds and economic and other consequences for farming and 
farming practices caused by the evolution of herbicide-
resistant weeds.
    I will do my best, related to my area of expertise in weed 
science, to address any questions that are asked of me in 
addition to my written testimony.
    I feel the issues we face in this regard include the 
overriding issues of the need to farm in a manner that allows 
high productivity capacity of quality and nutritious food in a 
manner that minimizes negative environmental impacts, farming 
that is sustainable for the long term and is acceptable to 
society.
    In a broader sense, all farmers face the challenge of 
managing pests and the introduction of genetically engineered 
herbicide-resistant crops was a response to this in regard to 
weeds. The question before us today is whether these crops have 
made herbicide resistance in weeds such a problem that we have 
selected for what some people call superweeds, or what I say, 
weeds resistant to a particular herbicide or resistant to more 
than one herbicide.
    The basis of my written testimony addresses the following 
issues: the positive impact that glyphosate-resistant crop 
plants and the use of glyphosate for weed management has had on 
improving global production efficiency by providing effective 
management of weeds. Second glyphosate-resistant weeds are 
evolving within the eco-agrosystem by adapting to high 
selection pressures imposed by crop production practices, which 
is no different than with conventional crops and with other 
herbicides.
    Third, the impact of glyphosate-resistant crops on weed 
communities is not directly attributed to the use of the crop, 
but rather an indirect effect of the grower management of the 
crops and weeds.
    Fourth, the rapid adoption of genetically engineered 
glyphosate-resistant crops occurred because glyphosate 
effectively controls most of the economically important weeds 
and simplifies weed management tactics, resulting in both 
increase of income and other benefits to the grower. The 
widespread use of genetically engineered glyphosate-resistant 
technology has facilitated greater adoption of no-till systems 
that conserve soil and energy resources and reduce 
environmental impacts, as well as improve the time management 
for farmers.
    Sixth, the widespread adoption of genetically engineered 
glyphosate-resistant crops has resulted in the grower deciding 
to simplify weed management to the applications of only 
glyphosate in many instances. This weed management approach 
results in imposing considerable selection pressure on weed 
communities.
    However, in recent years, grower awareness for the need for 
appropriate management tactics, integrated tactics that have 
been developed over the last 60 years by weed scientists in 
association with farmers has increased and growers are moving 
toward a better understanding of the implications of their 
herbicide use practices in order to improve sustainabilty of 
the system.
    Seventh, glyphosate-resistant weed populations can be and 
are effectively managed by using other herbicides and/or 
changing cultural practices. I feel the issues as stated will 
be supported by much of the testimony we hear before this 
committee. The adoption of glyphosate-resistant cropping 
systems has changed agriculture weed management, long-term 
sustainability based on better weed control, better use of 
resources, dramatic increases in no-till agriculture, to the 
benefit of soil conservation and improved safety of water.
    The important issue here is not that genetically engineered 
glyphosate-resistant crops are the cause of herbicide 
resistance in weeds, but these crops are an additional tool in 
the array of tools that we have developed over the last 60 
years to manage weeds in agriculture. There are challenges to 
be addressed when these crops are used, but they can be 
addressed in a proactive manner without jeopardizing this 
technology.
    The key in my mind is related to aggressively meeting the 
educational and resource challenges necessary to implement 
sustainable glyphosate-resistant based crop systems. Paramount 
to meeting this challenge is the need to develop consistent and 
clearly articulated science-based management recommendations 
that enable farmers to reduce the potential for herbicide-
resistant weeds to evolve, and to understand better the ecology 
and genetics of these and all weeds.
    A proactive, integrated and well-funded educational and 
research based approach to better manage weeds in all crops, 
including genetically engineered glyphosate-resistant crops, 
can minimize the widespread evolution of glyphosate-resistant 
weeds and weeds resistant to other herbicides and the result 
and potential loss of these technologies.
    Thank you, Mr. Chairman and members of the committee, for 
offering me the opportunity to speak before you today.
    [The prepared statement of Mr. Weller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you.
    Professor Mortensen, you may proceed for 5 minutes.

                STATEMENT OF DAVID A. MORTENSEN

    Mr. Mortensen. Thanks also for the invitation to present 
here today. It is a profoundly meaningful invitation for me, 
and a first one.
    The problem of glyphosate resistance is a real and serious 
one. I won't repeat some of the things that have been said 
about the species that have evolved resistance. But it is not 
just a species count. It is also the area of crop land that is 
being affected, and the comment that a few bad actors is 
something that maybe we can address. I think we need to take a 
look at what the extent of the problem is.
    I estimate that the resistance problem has spread to some 
10 million to 11 million acres, adding some $1 billion to 
control costs in the current growing season. These estimates, 
my estimates, seem conservative when seeing recent reports by 
agri-chemical manufacturers in the last month that project 38 
million acres will be infested by Roundup resistant weeds by 
2013, a Syngenta estimate, and half of all weed species will be 
resistant by 2018, a Bayer scientist.
    To put a face on the problem, I would like to turn to a 
recent Farm Press article that appeared in the Southeast Farm 
Press, a Georgia newspaper, where a weed scientist that a 
number of us know indicated that in 2005, the first case of 
pigweed resistant to glyphosate was confirmed in the middle of 
Georgia. And it was determined to be occupying about 500 acres. 
The resistant populations have since spread across 52 counties 
in the State, infesting more than 1 million acres.
    Within the next year or two, Culpepper, the weed scientist, 
estimates that the entire State, all of the counties, will be 
infested. Growers went from spending $25 per acre for weed 
control costs in cotton in the State of Georgia a few years ago 
to $60 to $100 per acre now. At the end of the article, 
Culpepper argues that herbicides alone often will not provide 
adequate control, and that an integrated program must be 
developed to reduce the amount of palmer amaranth, this pigweed 
plant, from interfering with cotton growth. He goes on, 
actually, to indicate the importance of recently adopted cover 
cropping practices by cotton farmers in Georgia.
    What in my opinion is most disconcerting, actually, is the 
industry's response to the resistance problem. And that 
response is to make crops resistant to multiple herbicides by 
inserting new genes that will confer resistance to other active 
ingredients in addition to the glyphosate resistance.
    It is my estimate, and those of colleagues that I have been 
working on this that conservative estimates of adoption would 
result in a significant increase in herbicide use in soybean 
and cotton disturbingly through the use of older, higher-use 
rate herbicides, like 2,4-D and Dicamba. It is our estimate 
that if these were adopted, we would see an increase in 
herbicide use by about 70 percent in soybeans. In the written 
testimony I give a very detailed accounting of how that figure 
is arrived at.
    Interestingly, if you look in the written record at the 
23rd reference of the piece that I wrote by Peterson and 
Holting, they provide a very detailed accounting of why these 
herbicides should not be used in wheat that has been applied 
for being released commercially for resistance to glyphosate to 
move away from the very herbicides that we are going to be 
using in soybean and cotton as the justification for approving 
Roundup resistant wheat.
    We were asked also to make any suggestions or 
recommendations to the committee on what is the Federal 
Government's role in this. I have five recommendations. The 
first is that the U.S. Environmental Protection Agency and 
APHIS should require that registration of new herbicide trans-
gene crop combinations explicitly address herbicide-resistance 
management. It is my view that this is not just another 
resistance problem, but actually a unique one in a sense that 
we have incorporated a gene insert for an herbicide 
specifically. We are continuing to ask for new registrations 
for new applications for other crops.
    No. 2, when a new GE resistance trait allows for an old 
herbicide, like 2,4-D or Dicamba, to be used in new crops, at 
new rates and in novel contexts, EPA and APHIS should work in a 
coordinated way to ensure that a thorough reassessment of the 
herbicide-active ingredient occurs in the context of its 
expanded and novel use. This reassessment should include 
explicit consideration of weed resistance and should be 
regionally relevant as cropping systems vary across the region 
and recognize the spatial heterogeneity of fields, farms and 
crops produced.
    Third, limit repeated use of herbicides in ways that select 
for resistance or that result in increased reliance on greater 
amounts of herbicide to achieve weed control. It is my view 
that there are ways that this could be done at the farm level.
    Fourth, provide environmental market incentives, possibly 
through the Farm Bill, to adopt a broader integration of 
tactics for managing weeds. Increasingly, farmers are adopting 
cover crops, crop rotations and novel selective methods of 
cultivation for weed suppression.
    And fifth, transgene seed and associated herbicides should, 
in my view, be taxed and proceeds used to fund and implement 
research and education aimed at advancing ecologically based 
integrated weed management. Some of you may be aware that we 
recently saw a major cut in public funding for weed research. I 
have been struggling personally to think about ways that can be 
restored.
    Thank you.
    [The prepared statement of Mr. Mortensen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank the gentleman.
    Mr. Kimbrell, you may proceed for 5 minutes.

                  STATEMENT OF ANDREW KIMBRELL

    Mr. Kimbrell. Thank you, Chairman Kucinich, Ranking Member 
Jordan and the members of the committee and subcommittee, for 
allowing me to testify today. I am very grateful for that.
    I actually think, ironically, and it gets to my testimony, 
that the discussion today, which is very informative, and I am 
learning a lot, and I am sure the written statements are 
probably the, not probably, certainly the greatest 
investigation of this issue that has yet taken place. And 
certainly greater than anything done at the USDA or the EPA, to 
my knowledge. So I thank you for that.
    I would argue that what we see before us in this problem 
that has been described today is not an act of nature, or an 
act of God, but an act of an agency. That agency that related 
through acts of omission has caused this problem. That agency 
is the USDA and specifically APHIS, as you mentioned earlier, 
Chairman.
    I want to just quickly go through, if I could, sort of the 
litany of what has happened here. In 2005, the IG office 
audited APHIS' work on GE field trials. The only way you could 
summarize that report is that APHIS was grossly negligent in 
providing information and gathering information about those 
field trials that would be valuable to assess both gene flow 
and the superweed problem.
    Unfortunately, APHIS did not take those recommendations 
into consideration, and less than 1 year later, Bayer's Liberty 
Link, from a field trial, from a small field trial, 
contaminated rice throughout the Southern States of this 
country, costing farmers over $1 billion, $1 billion, in 
losses. Now, having numerous lawsuits, class action lawsuits 
since then against Bayer, the last five that I know of have 
been successful, but nowhere near recouping that loss.
    Because of that, USDA came up with a document called 
Lessons Learned. Well, they may have been lessons learned, but 
they weren't lessons that were then executed. As a matter of 
fact, they implemented none of their own suggestions. 
Essentially in the 2008 Farm Bill, in the Farm Bill as enacted, 
were those recommendations saying the USDA, these are your own 
lessons learned about gathering information, about looking at 
superweeds, about looking at gene flow, about looking at the 
economic impacts on farmers. You did none of that. So you have 
18 months to do it, 18 months.
    And the Farm Bill, of course, it has long since been 18 
months, and they have not done any of that.
    Then the GAO report came out in 2008, GAO report again 
said, you are not providing this information on gene flow, you 
are not protecting farmers, you are not taking any of the steps 
that you were supposed to. And nothing has happened with those 
GAO recommendations.
    So you have the agency, you have the congressional 
investigative arm. You have Congress itself in the Farm Bill 
saying, USDA, get your act together, you are a dysfunctional 
agency when it comes to biotechnology regulation.
    But that is not all. Five different lawsuits, judges that 
have been appointed by both Republican and Democratic 
administrations, five in a row have come down and said to USDA-
APHIS, and it is in my written testimony, used words like, your 
approach is absurd, complete disregard for the law, you have 
abdicated your responsibilities, and this includes bentgrass, 
field trials, alfalfa, sugar beets and biopharmaceuticals. Five 
times in a row. And these were unappealed, these parts of the 
decisions were unappealed.
    So we have a rogue agency. And we have an agency that is 
basically regulating through litigation. The only way they are 
actually doing any regulation at all is through litigation.
    Now, in 2004, they said they were going to do a 
programmatic Environmental Impact Statement on just the issues 
that we have heard today. That has never been completed. The 
courts ordered them to do an Environmental Impact Statement on 
genetically engineered bentgrass, Roundup Ready. They have not 
ever done that, completed that. They said to the court in 
Alfalfa, they would do an Environmental Impact Statement in 2 
years. It is now 3\1/2\ years. Numerous failed appeals later, 
and they still haven't done it.
    So what is the impact of this? Let's take a look. This is 
not just, though I am an administrative lawyer, this is not 
just about administrative law, this has real life impacts as we 
have heard from the other folks who have testified today, the 
scientists. We have environmental harms like superweeds and 
gene flow contamination of organic and conventional crops that 
are allowed to happen without the protections established by 
law. And I want to address something Representative Schock 
said, which is, the whole point of this is to get the 
information to policymakers and the public and the farmers so 
they can make those educated decisions. When the USDA fails in 
that mission, that important information that has been called 
for by these scientists today is not forthcoming, and 
scientists and policymakers and farmers cannot make those 
educated decisions.
    Additionally, organic and conventional farmers and 
businesses relying on these products suffer major economic harm 
because the laws are not followed. If past is prologue, then 
StarLink and Bayer will end up costing us billions of dollars, 
as they have in the past, if this is not remedied at the agency 
level. Farmers who buy into, and this has happened with 
alfalfa, there were sugar beets, we were there with bentgrass, 
some farmers who bought into this, well, USDA approves the 
product, deregulates the product, some farmers buy into it, 
then a court declares that approval illegal.
    Well, the farmers are holding the bag. Right now, farmers 
who have GE alfalfa, sugar beets, they are in legal limbo, 
because courts have declared those crops illegal.
    Finally, the businesses themselves, agricultural 
biotechnology businesses themselves, are facing liability and 
financial uncertainty. So all of the actors are affected by 
this agency, this dysfunctional agency that is unfortunately 
regulated through litigation. I think a major thing we have to 
do, and perhaps we can discus this later, is how we can through 
this committee, how we can begin to address this problem.
    Thank you.
    [The prepared statement of Mr. Kimbrell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I thank all of the gentleman who have 
testified. As I said, your entire statement will be included in 
the record of the hearing.
    Given the complexities of what you present, the Chair and 
the ranking member will each have 10 minutes in the first round 
of questioning, and other Members will have 5. Then if 
necessary, we will go to a second round of questioning of 5 
minutes each.
    I want to begin with Dr. Weller. Dr. Weller, you were 
quoted in a 2001 article about glyphosate-resistant horseweed 
in the Indianapolis Star as saying, ``We thought we had a 
herbicide that was infallible.'' I think you were speaking here 
about Monsanto and many weed scientists who both adored 
Roundup's effectiveness and misjudged the likelihood of 
evolving Roundup resistant weeds.
    How could so many educated people so profoundly misjudge, 
and in some cases ignore the law of natural selection?
    Mr. Weller. When the herbicide came out, glyphosate, many 
people called it a non-selective herbicide. And I think many 
people bought into this fact that it was non-selective. What I 
mean by that is, theoretically it would kill all weeds that it 
was applied to or all plants that it was applied to.
    In fact, glyphosate is a very selective herbicide.
    Mr. Kucinich. So it was mislabeled?
    Mr. Weller. I don't think it was mislabeled. I think there 
were many misconceptions that in agriculture uses, it would be 
very effective.
    Mr. Kucinich. Let me ask you this. You were quoted in a 
Farm Press article earlier this year as saying--excuse me, let 
me go to Dr. Owen. You were quoted in a Farm Press article 
earlier this year as saying with respect to glyphosate-
resistant weeds, ``Right now, we are on the edge of a precipice 
that we could fall off of in the next 2 years.''
    Could you explain what that precipice is?
    Mr. Owens. What I was referring to is if we continue to use 
the product and the technology in the manner that historically 
we have done, we are now at the edge of where the, while the 
problems in Iowa are relatively infrequent, they are frequent 
enough that we will quickly move into an area where, I don't 
want to suggest it would be similar to what the cotton 
producers in Georgia have experienced, but certainly much 
greater----
    Mr. Kucinich. Which was what?
    Mr. Owens. With the palmer pigweed and their need to grow 
cotton without tillage and continue to use glyphosate 
exclusively, they basically ran themselves out of business.
    Mr. Kucinich. Let me ask you this, Professor Owen, and 
Professor Mortensen, if you could chime in. Let me read you a 
comment that was made by Dow AgroScience scientist, John 
Chichetta, to the Wall Street Journal in an article entitled, 
``Superweed Outbreak Triggers Arms Race.'' ``It will be a very 
significant opportunity, it is a new era.'' What Mr. Chichetta 
is talking about is that Dow has a new opportunity to sell 2,4-
D and a new variety of 2,4-D-tolerant soy, corn and cotton. 
This opportunity was created by glyphosate resistance in weeds, 
a development that hurts Monsanto, a competitor.
    Now, Professor Owen, isn't it true that Dicamba and 2,4-D 
are more toxic herbicides than glyphosate?
    Mr. Owen. Based on the EPA regulations, they are considered 
to be more toxic.
    Mr. Kucinich. And then Professor Mortensen, Mr. Chichetta's 
comments reveal the biotech industry is betting on farmers 
using more and more toxic herbicides, isn't that right?
    Mr. Mortensen. Yes, the quote in the Wall Street Journal, 
because I was also quoted in the same article, is very 
disturbing to me, actually. Because I think it just kind of 
laid it wide open that----
    Mr. Kucinich. Well, let me ask you----
    Mr. Mortensen [continuing.] Laid open the fact that they 
are expecting that this is going to open up a whole new area of 
research and marketing to combat the glyphosate resistance, 
yes. I don't think there is any question about that.
    Mr. Kucinich. Do you have any estimates of how much more 
toxic herbicides will be used, Professor Mortensen?
    Mr. Mortensen. Yes, in that same article I was quoted, and 
this has been something we have been working on for the last 
year and a half or so to come up with reasonable estimates, but 
something like 58 million pounds more----
    Mr. Kucinich. Really?
    Mr. Mortensen [continuing]. In soybeans alone.
    Mr. Kucinich. You testified that Syngenta's Chuck Forsman 
predicts that 38 million row crop acres will be infested with 
glyphosate-resistant weeds by 2013. That is a fourfold increase 
in just 3 years.
    Mr. Mortensen. Yes, that is what the quote is. Based on my 
best estimates from the WSSA, the Weed Science Society of 
America reporting site, my best estimates are that since 2007 
alone, the acreage increase of resistant weeds has increased 
five-fold.
    Mr. Kucinich. Let me ask you this. Bayer crop scientist 
Harry Streck cites research suggesting that 50 percent of 
agricultural weed species will be glyphosate-resistant by 2018. 
Now, would you say, Professor Mortensen, that these industry 
predictors constitute what could be described as a catastrophic 
problem for farmers?
    Mr. Mortensen. I think it is certainly a very serious 
problem. No question. It is a very serious problem.
    Mr. Kucinich. And Mr. Roush, the ability of weeds to select 
for herbicide-resistant traits is not a new thing. Isn't it 
true that the recent commercialization of crops genetically 
engineered to be tolerant of certain herbicides has aggravated 
that problem, precisely because farmers can apply types of 
herbicide to their land that normally would have killed the 
crop as well as the intended target, the weed?
    Mr. Roush. What it has done is, glyphosate is very cheap.
    Mr. Kucinich. Is that a yes or a no?
    Mr. Roush. Yes.
    Mr. Kucinich. Well, let me ask you then, because I need 
your help on this, Mr. Roush, one Georgia cotton farmer likened 
the Roundup resistant weeds choking cotton fields in Georgia to 
the boll weevil, which of course was a lethal threat to cotton 
farming there. In your opinion, as an Indiana corn and soy 
farmer, how serious a threat is herbicide-resistant weeds to 
farmers, and how serious an environmental threat is the 
potential solution of using more and more toxic herbicides?
    Mr. Roush. Well, the threat is very serious. But quite 
frankly, the solution is worse than the threat. Specifically 
Dicamba. I have seen Dicamba do terrible things to fruit and 
vegetable crops. In one instance, I saw a tomato field, and it 
was a fan pattern, and the crop was destroyed. And it was 
obviously Dicamba damage. No one could figure it out. We walked 
up toward a barn, and in this barn was an open jug of Dicamba. 
The lid was off of it, a 2\1/2\ gallon jug. It had volatized 
out of the jug and went into the--that is how dangerous this 
chemical is. It has to be looked at.
    Mr. Kucinich. Let me ask you this as a followup. If you 
have glyphosate-resistant, or rather, glyphosate-tolerant 
crops, inadvertently ushered in glyphosate-tolerant weeds, 
isn't it likely in the world as we know it today that the 
commercialization of multiple herbicide-resistant crops will 
similarly facilitate multiple herbicide-resistance in weeds?
    Mr. Roush. That would be likely, yes.
    Mr. Kucinich. And Mr. Kimbrell, what responsibility does 
the U.S. Department of Agriculture have for the proliferation 
of the superweeds problem?
    Mr. Kimbrell. They bear an enormous responsibility. Under 
the Plant Protection Act, they have the authority and they have 
had the authority since, remember, they approved, that is 
deregulated all the crops we are talking about. And they did 
all of it without a single Environmental Impact Statement, 
despite their commitment that they would do a programmatic 
Environmental Impact Statement, which would cover all these 
issues we are talking about.
    Mr. Kucinich. Was there any change in the policy under the 
new Secretary?
    Mr. Kimbrell. I wish I could give you an optimistic answer, 
Mr. Chairman, on that.
    Mr. Kucinich. Well, wait. Is there anything the Obama 
administration could do differently to prevent the 
proliferation of superweeds and the use of more toxic 
herbicides in farm fields?
    Mr. Kimbrell. Oh, my goodness. Well, first of all, how 
about doing an actual Environmental Impact Statement that 
actually looks at this issue? Again, we are looking at this 
issue de novo here, at this subcommittee level. This is the 
information that should have gone into the USDA in the 1990's, 
late 1990's and the last 10 years, and they should have been 
making it available to both policymakers and the farmers. They 
have not done that. They have not done that to this day.
    As a matter of fact, up to this point, USDA says under the 
Plant Protection Act they are either not sure or they are 
pretty sure they will not have to do that in their 
Environmental Impact Statements. And now courts have ordered on 
alfalfa and sugar beets. They admit they now have to look at 
gene flow. But they are still not admitting that they need to 
look at this serious issue in an environmental statement, 
hoping that they will come out with an EIS sooner or later.
    Mr. Kucinich. I thank all the gentlemen for their 
cooperation in answering the questions. I now recognize Mr. 
Jordan for 10 minutes.
    Mr. Jordan. Thank you, Mr. Chairman. I appreciate our 
witnesses. I did notice that we have two Ohio ones and two 
Members from Illinois, we have a Purdue and Iowa State and a 
Penn State guy here. Fine people, but I am sure we could also 
add a Buckeye, maybe one from the Fighting--got a Buckeye 
background?
    Mr. Weller. I have a masters from Ohio State.
    Mr. Jordan. God bless you, I knew we had to have one in the 
crowd. [Laughter.]
    Thank you all for joining us.
    Let me go to Mr. Owen and Professor Weller and kind of cut 
to the chase. How many of the superweeds came through the gene 
flow, I think was the term I heard, I am certainly no expert in 
this area, but through the gene flow of genetically engineered 
crops? To me that seems to be the crux of the matter.
    Mr. Owen. None.
    Mr. Jordan. Am I wrong?
    Mr. Owen. None. There are no sexually compatible weeds with 
corn, soybean and cotton in the areas that they are produced. 
Thus none of the herbicide resistant, I really do not care for, 
from an ecological perspective, the term ``superweeds.'' So 
herbicide-resistant weeds, there is no evidence and no 
possibility that gene flow could accommodate the evolution of 
glyphosate-resistant weeds in cotton, corn and soybean.
    Mr. Jordan. OK. Let me ask you this. Is this the first time 
farmers have had to deal with herbicide-resistant weeds?
    Mr. Owen. Absolutely not. We have had major problems with 
herbicide resistance for a number of years. Notably for 
example, all of the common waterhemp in Iowa, which is a lot, 
is functionally resistant to all ALS inhibitor herbicides. So 
this is not a new problem that we have been dealing with as 
weed scientists.
    Mr. Jordan. I want to be clear, and we will get all of the 
professors. I want to be clear. So farmers were experiencing 
problems with herbicide-resistant weeds before we had 
genetically engineered crops?
    Mr. Owen. Absolutely.
    Mr. Jordan. Care to elaborate, Mr. Weller? I thought you 
had something to add.
    Mr. Weller. Do you want me to add?
    Mr. Jordan. No, I think it is pretty plain. So talk to me 
about the approval process.
    Mr. Mortensen. Can I add something?
    Mr. Jordan. Sure.
    Mr. Mortensen. I think in my view, the point that you raise 
is a good one, resistance has been around for a long time. I am 
trying to remember back exactly, but atrazine was an herbicide 
that was used widely in corn. There were a number of species 
that evolved resistance to atrazine.
    What in my view is very unique about the problem that we 
are addressing today is that we have a crop that was bred to be 
resistant to an herbicide that it had previously been 
susceptible to. And that we now see, and people pay a premium 
to use that seed. And the seed and the herbicide go together as 
a package. That has not happened before. And we see 92 percent 
of the soybean acreage is of this kind of soybean, and I don't 
have exact statistics, but 65 percent of the corn and 70 
percent of the cotton.
    So this is unlike anything we have encountered before in 
that regard. The scope and the consistent use of something that 
you are paying the premium for.
    Mr. Jordan. How recent, and I will let you speak, I know 
you want to jump in, Professor, how recent has this whole 
Roundup Ready, how recent is this phenomena? Refresh my memory, 
because I talked with our farmers.
    Mr. Weller. Roundup resistant soybeans were released in 
1996. And corn, no, cotton was 1997, and then corn, 1998. So 
about 14 years, these crops have been on the market.
    Mr. Jordan. And if you don't go that approach, what would 
the farmer have to do different? If he is not going to go the 
Roundup Ready approach, are you talking, back when I was a kid, 
get the tractor out, cultivate, run the tractor more often, 
till the ground more often? Is it that alternative? Assuming 
they are going to rotate crops, which good farmers are going to 
do, is that the choice that they face? Is it that basic?
    Mr. Weller. One thing I would like to add to what Dr. 
Mortensen said----
    Mr. Jordan. Add to it, but then answer my question.
    Mr. Weller. Yes. Then I will answer your question. It is 
not totally true, it is true in the sense that there has never 
been a genetically engineered crop prior to Roundup that 
allowed you to use an herbicide in it. But in the case of corn, 
corn is naturally tolerant to atrazine. So in fact, we had a 
crop on the market, I mean an herbicide on the market that the 
crop was in essence resistant to a long time before 1996. 
Because atrazine has been on the market since about 1956, I 
believe.
    Mr. Jordan. It was naturally resistant?
    Mr. Weller. It was naturally resistant. The natural 
resistance is based on corn metabolizing the herbicide into an 
inactive form. The weeds can't do that.
    Mr. Jordan. OK.
    Mr. Weller. So we did have some experience. And when we got 
the atrazine resistance, to me, we have many of the same issues 
with all of the different types of herbicide resistances that 
we have dealt with in general. We developed a whole toolbox of 
weed management techniques from before we had herbicides until 
after we had herbicides. This includes some form of tillage, or 
even before tractors, hand hoeing, crop rotation, so you crop, 
and Dave is much more of an expert on this than I am, but 
certain weeds are more likely to be a problem in some crops 
than others. So you might rotate to a more competitive crop to 
get rid of those.
    So integrated weed management is the approach to deal with 
all weed problems. In the case of herbicide resistance, and it 
goes back to Chairman Kucinich's comment, yes, the approach 
from a chemical standpoint is tank mixes of herbicides. In the 
case of atrazine-resistant cory, we always used these 
chlorosetamide type of herbicides, trade names were Lasso, 
Dual. And they are all soil-applied. And those got rid of most 
of the weeds that were not being controlled by atrazine.
    So in the case of glyphosate, we have seen an increase in 
pre-emergence herbicides applied. You can say all herbicides 
are toxic if you want to put it that way. But most of the 
herbicides that have come on the market since the 1980's 
generally are relatively non, lower toxicity than some of the 
older compounds. 2,4-D and Dicamba would be two of the older 
compounds.
    So tank mixtures, crop rotations, addressing weeds with 
different management techniques is the way we have always dealt 
with weeds, whether they are resistant or not, so that they 
don't buildup and become a problem. The novelty of this is, we 
had this herbicide, as you asked me, it was infallible, well, 
it wasn't infallible. People thought it was. They applied only 
that. We had Roundup Ready crops, corn, soybeans. Those were 
rotated. They used Roundup. Bad management.
    Wasn't the crop's fault. It was the management's fault, my 
feeling.
    Mr. Jordan. So it is not as basic as I described, where 
they are going to have to choose one option or the other. It is 
a comprehensive integrated approach is the best way to handle 
this all?
    Mr. Weller. Yes.
    Mr. Jordan. You are not advocating we--I mean, farmers are 
going to use herbicide. If they have to go to something else, 
there is a cost associated with that, frankly, maybe less 
yields, etc., that may be associated with that. So it is a 
comprehensive integrated approach.
    Mr. Weller. Well, and the one negative in the glyphosate 
case, glyphosate-resistant crops allowed us to go to massive 
acreages of no-till. So we met a lot of the rules and 
regulations about tillage. We may have to, as Dave mentioned 
earlier, some types of minimal tillage could play a role in 
that again. We have to consider what the economic and the 
environmental aspect of those practices are.
    Mr. Jordan. Do our professors and our farmer, do you share 
the same criticism of the agency that Mr. Kimbrell does? And 
maybe give the committee a little insight into the approval 
process both the EPA has for the herbicide and USDA has for the 
engineered crops? Elaborate on that if you will.
    Mr. Roush. I am certainly no expert on any of that. I deal 
with the ramifications of what comes down the pike, of course. 
And I see the ramifications of what is coming down the pike, 
and that is my concern.
    Mr. Jordan. Professor.
    Mr. Owen. I am very much unfamiliar with the specifics that 
are referenced. But I have followed this a little bit. When we 
are working with regulated materials, we follow whatever 
requirements are placed upon us. But as far as how the agency 
behaves otherwise, I honestly don't know.
    Mr. Jordan. Let me do one thing. Mr. Mortensen has 
advocated a tax on herbicides, I believe, in one of his four or 
five suggestions. Do the rest of you share that? I mean, I 
would point out that the one sector of our overall economy that 
is doing relatively well is agriculture. Profits were up, we 
had a figure, net farm income is forecast to be $63 billion 
this year $6.7 billion or 11 percent, almost 12 percent 
increase from last year. So that is one sector of our economy 
that is looking pretty good.
    Would you advocate taxing herbicides and putting that 
additional cost on agriculture?
    Mr. Owen. Absolutely not.
    Mr. Jordan. Mr. Weller.
    Mr. Weller. I agree, no.
    Mr. Jordan. And let's talk to the farmer.
    Mr. Roush. Sure, as long as the funds were properly 
allocated to public research.
    Mr. Jordan. Mr. Kimbrell.
    Mr. Kimbrell. Yes, I just want to, whatever the issue, yes 
or no on tax, I think it would be a shame if that cloud over 
the central point of Professor Mortensen's, which is that we 
need Federal funding for independent, university research, 
independent university research, to track the emergence of 
these weeds. We do not have that database. That is the database 
we all were looking for. It seems to me that the tax, maybe 
there has to be some funding mechanism. I am not sure tax is 
it.
    But let's not forget that this is a really important area, 
where university researchers could be invaluable in helping us 
track the emergence of this growing crisis.
    Mr. Mortensen. And understand if you will the program that 
I chaired last year, I spent my own time down in D.C. chairing 
the national research program in weed and invasive organisms. 
It was eliminated 4 months ago. The 406 funds that fund weed 
science and integrated pest management research were eliminated 
about a month ago.
    There is no public sector funding, or very limited. There 
is a critical issues program that was recently established. But 
it is not going near far enough to address the kinds of things 
we have been discussing today. And I am confident and certain 
that it will not be done by the companies.
    Mr. Owen. And I would be, if I may, unless we take with the 
research the opportunity to extend that information to the 
growers, because research without information and transmittal 
of information is of no value. So extension is also a very 
important component.
    Mr. Kucinich. I thank the gentleman. We are going to, Ms. 
Kaptur has kindly yielded to Mr. Foster. You are recognized.
    Mr. Foster. Thank you so much. I apologize, I may have to 
jump out for votes in a different committee.
    My first question, is it unambiguous, is the biochemical 
mechanism for the glyphosate resistance in the superweeds 
identical or different from the mechanism in the GM traits? And 
is there any ambiguity about whether or not this thing could 
have been, the gene could have jumped? Or is it absolutely 
clear to everyone that the gene did not jump, it was 
independently evolved?
    Mr. Weller. There are, I believe, three cases of weeds that 
have developed a certain level of resistance to glyphosate due 
to an alteration in the amino acid sequence on the enzyme that 
glyphosate inhibits. Two of those weeds are in Australia. They 
are rigid ryegrass and Lolium. And the third weed is 
goosegrass, which is in Malaysia. So to my knowledge, none of 
the weeds in the United States have this alteration at the site 
of the action.
    In the case of the weeds in the United States, much of it 
is unknown, the specific mechanisms. But in the case of, at 
least the palmer amaranth that was examined in Georgia, and 
that doesn't mean they are all this way, but people assume it 
is, it has more of the enzyme that glyphosate inhibits. So it 
has like 150 times as many copies of the EPSP synthase enzyme. 
You can't put enough glyphosate on it to kill it.
    In the case of several others, it has been shown that the 
glyphosate, there is limited translocation to growing points. 
And that is where the plant is injured, but it starts re-
growing.
    Mr. Foster. My apologies. I do have to disappear for a 
vote. I will give you a couple of questions for the record.
    Mr. Weller. Sure.
    Mr. Kucinich. I thank the gentleman.
    Mr. Schock, you are recognized for 5 minutes.
    Mr. Schock. Thank you. I have been very interested by all 
of your comments. As I mentioned in my opening statement, there 
doesn't seem to be a whole lot of disagreement on the panel 
about what is happening. We have weeds throughout our history 
of farming that become immune to the herbicides that are used 
against them. And in the case of farmers who do not provide, 
who do not participate in crop rotation and rotation of their 
herbicides and pesticides that are used, the problem is 
exacerbated. Does anybody disagree with that?
    Mr. Mortensen. I think, at least I seem to be the outlier 
here of the three weed scientists on this point. One of the, to 
me, a really important distinction is that we have an herbicide 
that we basically can use in just, well, certainly in Midwest, 
year after year now, because we have, unlike the case where you 
could use atrazine in corn and you had resistance, and weeds in 
corn, you go to soybeans and you don't use atrazine, and you 
are not selecting for the weed population year in and year out.
    The thing that is unique about this is that we are using 
this compound a lot. And there are more registrations that are 
in review right now for other crops to be added where the same 
active ingredient that can be used----
    Mr. Schock. Let me interrupt then. And I agree.
    My question would be this, then. Would you agree that if it 
is being done year after year after year with the same crop, 
year after year after year, that would be contradictory to the 
EPA label found on the product and best practices for crop 
rotation and weed management?
    Mr. Mortensen. I would agree that would not be a good 
thing.
    Mr. Owen. Truthfully, any practice that is repeated 
recurrently, whether it be tillage or no tillage, or herbicide, 
and we have history where we used the same mechanism of action 
on both crops, corn and soybean, in the 1980's, with the ALS 
inhibitors. But anything that you do recurrently is going to 
cause a shift in the weed population to allow something that 
doesn't respond to whatever it is that you are doing to become 
the dominant feature of a particular crop field.
    Mr. Schock. Professor Mortensen, first let me say this. I 
think what I was trying, and the point that I made in my 
opening statement was that it makes sense for farmers to do 
what is right. Obviously to invoke best practices, to follow 
the EPA prescribed guidelines on the chemicals that are being 
used, vis-a-vis the crops that are being planted. And really, 
by and large, this problem can be mitigated through proper 
farming techniques.
    Now, as I mentioned, we have bad actors. We have people who 
don't follow it. And as a result, 0.08 percent of our world's 
farm ground is being affected by so-called superweeds, or 
herbicide-resistant weeds. Now, I am not suggesting that 0.08 
percent of farm ground is insignificant. But what I am 
suggesting is that some of the prescriptions for the cure I 
would argue are worse than the disease itself.
    I want to focus on your recommendations, Mr. Mortensen. 
Specifically, I have read your five recommendations. And No. 3 
suggests that the Government should ensure farm level herbicide 
management planning.
    How does the Government ensure farm level herbicide 
management planning?
    Mr. Mortensen. There would be actually several ways that it 
could be done. Right now, the B.t. is regulated at the farm 
level, which is for insect resistance management. We could 
easily imagine a case where the amount of glyphosate, for 
example, that is sold for a certain number of acres that a 
farmer is farming would be something that you would keep track 
of and not have somebody have enough of the glyphosate that it 
is going to be used on the entire farm.
    You could require, as is the case with CAFO requirements 
for water quality, insurance, as in my own State, where there 
are dairy farms, where you are concerned about water quality 
issues. We have rules where farmers have to have a water 
quality soil management plan in place. I don't see any reason 
why we couldn't have a pest management plan in place at the 
farm level.
    Mr. Schock. The chairman has very politely informed me that 
my time is expired.
    Mr. Kucinich. We are going to have another round.
    Mr. Schock. All I would say, now that my time is expired, 
is I think that it would be far more effective for us to 
promote education as the form of encouragement to farmers to 
prohibit this as opposed to additional regulation and 
Government involvement. I yield back.
    Mr. Kucinich. I thank the gentleman. We are going to have 
another round and you will be welcome to participate in it.
    The Chair recognizes Ms. Kaptur.
    Mr. Kaptur. Thank you, Mr. Chairman, very much, for holding 
this extremely important hearing. I wish to place in the 
record, with unanimous consent, an article, if it has not been 
placed in the record by other Members, that was in the New York 
Times on May 4th, entitled ``The Rise of the Superweeds.''
    Mr. Kucinich. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Kaptur. Thank you. I will just read one statement from 
Andrew Wargo, III, President of the Arkansas Association of 
Conservation Districts, that the impact of these genetically 
resistant weeds is the ``single largest threat to production 
agriculture that we have ever seen.'' That is interesting for 
someone from the State of Arkansas, but the article goes on and 
it mentions many of the concerns we have been talking about 
here today.
    Let me just state for the record that I have legislation 
that I would also like to place on the record here, H.R. 3299, 
I have re-introduced in this Congress, called the Seed Saver 
Legislation, to allow farmers to save their seeds and to 
actually pay royalties to the Department of Agriculture at 
levels that they assess, not to the seed companies. And 
incredible concentration in the seed market has priced many of 
our farmers out of the market and given seed companies, not the 
seed dealers, unnatural control over who holds the power of 
life.
    While this is not the primary purpose of this hearing, Mr. 
Chairman, I would like some of the panelists to comment here on 
the incredible concentration of the seed market and the market-
manipulating actions of these companies. I wanted to ask Mr. 
Roush if in fact he has to pay technology fees when you 
purchase your seeds, and also, do you have the ability to 
harvest the seeds that you purchase?
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Roush. I think you mean do I have the ability to retain 
or keep the seeds?
    Ms. Kaptur. Yes.
    Mr. Roush. No, I do not.
    Ms. Kaptur. I don't think most Members of Congress really 
understand this.
    Mr. Roush. I don't think they understand the issue at all. 
The Supreme Court has usurped the law of the land, which is the 
Plant Variety Protection Act. And I will leave it at that.
    Ms. Kaptur. I wanted to mention, in terms of Mr. Kimbrell's 
testimony, that APHIS funding levels in the recent 2011 budget 
provided an additional $6 million to assess the risks of 
genetically modified organisms for the Biotechnology Regulatory 
Service. The budget provides about $19 million for the overall 
services there within APHIS, to assess the risks of forthcoming 
genetically modified organisms. This is an increase compared to 
the prior year.
    I am wondering if you are stating that is not sufficient. I 
just want to understand what you are saying about the budgetary 
levels of USDA.
    Mr. Kimbrell. Yes, and if I may, I cannot resist commenting 
on the first thing you brought up. It is true right now that 
Monsanto owns 25 percent of the world's commercial seeds, 
together with Syngenta, Bayer, Dow and Dupont, they own almost 
50 percent of all the world's commercial seeds. We have seen a 
massive and significant rise in the cost of corn.
    Mr. Kaptur. If the gentleman would yield, I don't think the 
American people really understand that the seeds of life are 
now controlled by chemical companies for the most part.
    Mr. Kimbrell. Yes, and I think that the manner in which 
they control them is through acquisition of seed companies, 
through patenting of those seeds, through genetic engineering 
of those seeds, and through potentially something called 
terminator technology, which would be a technology which has 
the seeds basically infertile after one growing season. So we 
are facing a hidden crisis in seed diversity, we are letting a 
few chemical companies decide which seeds on the earth are 
going to be available to farmers, which are not.
    If this were water or oil, we would realize the crisis we 
are in. I just want to undergird what you are saying, I think 
it is terribly important.
    Mr. Kaptur. If you have recommendations, or Mr. Roush, on 
what we might do about that through your organizations, I hope 
you will get back to us on that.
    Mr. Kimbrell. Yes. Thank you. And as far as, to me the 
problem, and I really should, I can get back to the 
subcommittee on this, to me the problem with appropriations is 
not as important as the problem of exactly who the agency seems 
to be serving. And having witnessed these five litigations, all 
lost by APHIS, having looked at the IG and the GAO report and 
the Farm Bill, it seems to me that the USDA, now with this 
administration as well, but certainly in the last 
administration, is bending over backward to find excuses not to 
do an Environmental Impact Statement, excuses not to look at 
the economic harm. And to this day refusing even to look at the 
issue which is the central issue of this hearing.
    So regardless, if they have the money and they are not 
spending it actually doing the work they have to do, it seems 
to me that is the problem. Whether that is actually adequate to 
do that job, somebody else would have to say. But again, I want 
to re-emphasize and say here, I certainly do not like to see 
the agency relying solely on the information being given by the 
companies. I would certainly think that one way to spend that 
money would be to get independent, university researchers like 
some of the people on this panel to really look at the 
emergence of these superweeds and give us the kind of 
information we need, and then put that in the Environmental 
Impact Statement.
    Ms. Kaptur. I read you loud and clear on that.
    I know my time is expired, Mr. Chairman, but I do want to 
ask Mr. Roush, what fee on Roundup Ready soybeans do you have 
to pay per year?
    Mr. Roush. That is unclear . It is buried in the price of 
the seed. It quite frankly depends on whether or not it is 
generation 1 or generation 2 Roundup Ready. It is very unclear.
    Mr. Kucinich. I am going to have to interrupt. There is a 
vote in progress. We are going to have to go.
    I thank the gentlelady, the gentlelady's time is expired. I 
am going to recess this hearing until about a quarter after 4, 
and we will come back for the next round of questions.
    [Recess.]
    Mr. Kucinich. The committee will come to order.
    I want to thank the members of the panel for their 
presence, and for their patience. We had four votes, and now I 
am going to do the best I can to get through a few other 
questions. We have about another 15 minutes worth of questions, 
and I am going to begin.
    Professors Owen and Weller, in your written testimony, both 
of you identify farm mis-management as the main culprit in 
causing herbicide resistance in weeds. Staff, will you 
distribute an exhibit to the witnesses?
    While it is being distributed, I am going to read the text 
in case you can't see it. It says, researchers also found no 
benefit in rotating glyphosate with other herbicides. ``The 
important finding is that telling growers to use glyphosate 1 
year and not the next year has no advantage over using 
glyphosate every year at recommended rates.'' Dr. Wilson said, 
``The concept of rotating glyphosate with alternative 
chemistries hasn't proven any more effective than just properly 
applying glyphosate.'' Following 7 years of research, Dr. 
Wilson says the basic message remains unchanged: don't cut the 
recommended rate of Roundup.
    So here is Monsanto telling farmers to use more and more 
Roundup and to use it exclusively to control weeds. That was 
only 5 years ago. Isn't it true that if farmers followed the 
advice Monsanto was giving, they would have Roundup-resistant 
weeds in their fields today?
    Mr. Owen. Yes.
    Mr. Kucinich. Anyone else?
    Mr. Mortensen. Yes.
    Mr. Roush. I received that advice, and yes.
    Mr. Kucinich. Professor Mortensen, Monsanto made a lot of 
money with farmers following that advice. Isn't it true that 
Monsanto's Roundup Ready seeds and Roundup herbicide virtually 
took over the market and that is what exerted natural selection 
pressure on weeds to select for resistance to Roundup?
    Mr. Mortensen. Yes, it is.
    Mr. Kucinich. Professors Owen and Weller, to resolve the 
problem of herbicide resistance in weeds going forward, you 
both put your faith in public education to inform farmer 
decisions. That sounds a lot like the plan that got us into the 
problem we currently have. At what point would your policy 
recommendations expand from a sole reliance on public education 
efforts? In your view, is there ever a role for Federal 
regulation? Professor Owen?
    Mr. Owen. I think there has to be a role for regulation at 
some point. In trying to envision this and anticipating the 
question before I arrived here, I was basically at loggerheads 
trying to figure out how that could be actually implemented. 
Because I see what has been relatively effective in my opinion 
with regard to IRM, insect resistance management.
    But the biology of the insects and the biology of the weeds 
are so much different that I am having trouble seeing how that 
type of regulatory action would have any impact.
    Mr. Kucinich. Professor Weller.
    Mr. Weller. I agree with Dr. Owen, when he says the 
difference between insects and weeds. From my perspective, from 
a regulatory role, I would like to see what people would come 
up with as far as the basis for that. The comment on education 
is, to provide the grower with scientific-backed facts about 
what are the best ways to manage weeds. We know what happened 
when farmers followed the recommendations from Monsanto, 
Roundup, Roundup, Roundup. It is not good. We knew that. And I 
think from our point of view, we did counter that from the 
university point of view.
    But I think the other comment that many farmers believed 
it, and it did make their weed control quite efficient for 
several years, until the selection pressure resulted in weeds 
that weren't as well controlled.
    Mr. Kucinich. Well, here is the point that I am making. How 
far along do you keep saying, well, use public education, what 
happens if you reach the point of infestation that is predicted 
by Syngenta scientists, 38 million acres of row crops? Do we 
still talk public education?
    Mr. Weller. From my perspective, that Syngenta comment is 
based on using only Roundup, not using an integrated weed 
management approach.
    Mr. Kucinich. OK. Good point.
    Mr. Weller. That would result in exactly the catastrophe 
that we have been talking about today.
    Mr. Kucinich. So what would be the tipping point to 
consider other policies, even a Federal role? And of mitigating 
the spread of herbicide-resistant weeds?
    Mr. Weller. I think one thing we have learned in the last 5 
years, and Mike and I have been involved in a six-State study 
looking at weed management in Roundup Ready crops and other 
rotations, we have seen a change in farmers' approaches to 
management based on a lot of the best management practices that 
have been coming out from the universities.
    Whether you can force farmers to do that without 
regulation, I don't know.
    Mr. Kucinich. Professor Owen, did you want to jump in on 
that one?
    Mr. Owen. Yes, I did. Dr. Weller makes a good point: can 
you force farmers to change? I don't think so. Even if you 
could, I don't know how you would enforce it. Your point about 
how far do we wait, well, we should have been doing this all 
along. A number of us made those recommendations and continue 
to make those recommendations. For example, in Iowa, we have 
approximately 1.25 FTEs dedicated to extension and weed 
science.
    Mr. Kucinich. Let me ask Professor Mortensen to jump in 
here. At what point, Professor, do you think it is time for the 
USDA and the EPA to step in with regulations aimed at 
preventing the spread of herbicide resistance in weeds?
    Mr. Mortensen. I am of the opinion that this is, I think we 
are at that point. So I am of the opinion, being invited to 
come down here, I spent the better part of the past week 
reading and just sort of polishing up on some things to get 
ready to come down here. I actually am surprised at the extent, 
and I knew about the species count. I have been following that 
closely, from an ecology point of view that interested me a 
lot.
    But I wasn't aware of the number of sites and the number of 
acres infested. I was actually honestly surprised at the high 
figures that I came up with that also corroborate figures that 
Ian Heap, the reported expert on this internationally, has been 
coming up with as well. I think we are at that point.
    And the other thing that I echo the concern that Troy 
expressed about the solution from the companies' point of view 
is pretty far down the tracks. The gene insert train is on the 
tracks. I was at the University of Nebraska when we hired the 
director of the biotech center, who is Don Weeks, who is the 
person who received the patent at the University of Nebraska 
for the Dicamba gene. That was a contractual arrangement with 
Monsanto. And that was published in a 2007 science paper 
announcing this discovery.
    We are 3 to 4 years away from seeing these crops planted in 
the field. Glyphosate Dicamba, glyphosate 2,4-D, and there has 
been very little discussion, there has been very little 
science, there is not near enough communication between EPA and 
APHIS about this, in fact, very little. I was invited down to 
EPA to talk about work we are doing on this subject about 4 
months ago. The talk we gave was piped out across to all the 
EPA labs across the country. And it is clear that there is not 
enough communication between EPA and APHIS on how this is all 
progressing.
    Mr. Kucinich. Let me ask you about the USDA. Is it in the 
long-term interest of farmers for the USDA to continue 
approving new glyphosate-resistant crops, like Roundup Ready 
alfalfa and sugar beets, in the complete absence of effective 
resistant management plans?
    Mr. Mortensen. No.
    Mr. Kucinich. And then Mr. Roush, I think that many people 
would want to believe that farmers are able to solve the 
problems of herbicide resistance in weeds on their own as a 
farmer. Do you agree with that?
    Mr. Roush. No, absolutely not. We are working on advice 
from largely industry only The public sector, our public 
research is dead, it is decimated. So we are taking the advice 
of the people that are selling these compounds. And it is 
really frustrating. I got the impression early on that in a lot 
of ways, it feels like us farmers are being blamed for this 
issue. And yet we are working on advice from industry. It is 
exacerbating the problem.
    Mr. Kucinich. Let me turn the question a little bit. In 
your opinion, as a farmer, is it in the long-term interest of 
farmers to leave the Government off the hook for responsibility 
to prevent proliferation of superweeds?
    Mr. Roush. I am kind of reluctant on that superweed, but 
resistant weed, I accept that term. No. It is not. Government 
has a role, if nothing else, in research and education. But 
even the potential solution is a bigger concern. I have stated 
repeatedly that I believe the solution to glyphosate-resistant 
weeds is worse than the problem. I would rather have the weeds 
than the Dicamba that they are proposing to solve the problem 
with.
    Mr. Kucinich. Just one final question here. Is there any 
lessons to be learned from, if any of you know this, Australia 
had some experience with herbicide resistance. And if any of 
you know about that and you would like to comment on that, what 
lessons could be learned? We have a video here.
    [Video shown.]
    Mr. Kucinich. So are you familiar with Australia, Professor 
Owen?
    Mr. Owen. Yes, I am.
    Mr. Kucinich. And do you agree with Professor Powells that 
the Australian catastrophe of glyphosate-resistant weeds 
affecting half a continent is now unfolding here?
    Mr. Owen. I would not agree with him to the extent that we 
have the same system. They have a very unique agricultural 
system in western Australia and in the agricultural areas. 
There are lessons to be learned from the experience in 
Australia. But we have a much more diverse agriculture than 
they have. Thus, we have a lot more opportunities to manage 
this by incorporating different technologies that are currently 
available.
    Mr. Kucinich. Thank you.
    Professor Mortensen, did you want to comment?
    Mr. Mortensen. Yes. I think there are, I agree with Mike 
that the cropping systems in Australia are simpler. But one of 
the things that we explored in a recent paper that we published 
is that when you make the weed management that you are doing, 
which is the use of glyphosate, very similar year in and year 
out, actually in some ways we are not unlike that broad acre 
farming in Australia. Because what the problem in Australia is 
is that they are using much the same practices year after year. 
We are moving in that direction here.
    Mr. Kucinich. So you are saying down the road this could 
pose some implications that Australia is experiencing?
    Mr. Mortensen. Yes.
    Mr. Kucinich. Are you familiar with Australia, Mr. Roush?
    Mr. Roush. I have spent some time there, if you are asking. 
I have spent some time in Australia, yes.
    Mr. Kucinich. Are you familiar with their herbicide-
resistance problem?
    Mr. Roush. Yes, but here again, I am not a scientist, so I 
can't speak to it.
    Mr. Weller. Can I say something? I agree with Mike and 
David to a large degree. But I think the important point that 
Mike made was the cropping diversity allows us also to have a 
diverse array of herbicides that they don't have. There about 
11 mechanisms of action of herbicide, most of which we can use 
in our corn, soybeans and cotton if they are registered. 
Whereas in Australia, they tend to be mostly in grain crops, 
more wheat, crops like that, which don't allow quite the 
diversity.
    And the other thing, if I could talk for just one more 
minute, when you think about regulations, I think we have to 
think thoroughly what kind of program are we going to come up 
with. At this point, I think back to our education and the 
basis of research-generated knowledge, we need more funding to 
do those types of things, because I think right now the type of 
solution, if it is legislated or not, what we have is, what 
kind of cropping approaches with tank mixes of different 
herbicides are we going to come up with to require people to 
use.
    I think we really want to get back more to a sustainable 
approach, are there non-chemical approaches, are there cover 
crops that can be used, are there alterations in tillage, and 
what are the herbicides that best fit into those systems to 
make it sustainable. I think that is what has to be thought 
through with regulations or not.
    Mr. Kucinich. I want to thank each of the witnesses. This 
has been a very important panel, the first one that Congress 
has held on this subject. This is something that has great 
implications for American agriculture and for people who make a 
living working the land.
    So we honor the generations of working the land that your 
family has done, Mr. Roush, and just know that your presence 
here is very helpful. All the scientists who are here, and the 
years that you have spent in studying this, this subcommittee 
is very grateful for your presence. It helps us to look with a 
depth of knowledge into this issue.
    We are going to continue to assert jurisdiction over this. 
There will be another hearing in September.
    I am Dennis Kucinich, Chair of the Domestic Policy 
Subcommittee of Oversight and Government Reform. Today's 
hearing has been ``Are `Superweeds,' '' as we call it, ``an 
Outgrowth of the USDA Biotech Policy?'' This is Part 1 of our 
inspection hearing. We have had a list of distinguished 
panelists and are very grateful for their presence here. This 
subcommittee stands adjourned. Thank you.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
